   March 10, 2004




Acquisition
Air Force Satellite Control Network
Contract
(D-2004-056)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCAA                  Defense Contract Audit Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
EVMS                  Earned Value Management System
SCN                   Satellite Control Network
SMC                   Space and Missile Systems Center
           Office of the Inspector General of the Department of Defense
Report No. D-2004-056                                                      March 10, 2004
   Project No. (D2003AB-0148)

                 Air Force Satellite Control Network Contract

                                 Executive Summary

Who Should Read This Report and Why? Program managers and contracting officers
who oversee, manage, and provide advice on the award and administration of contracts
should read this report because it discusses allegations submitted to the DoD Hotline
concerning questionable contracting practices during the award and administration of the
contract for the Satellite Control Network.

Background. We performed this audit in response to five allegations made to the
Defense Hotline concerning questionable contracting practices during the award and
administration of the Satellite Control Network contract. The Satellite Control Network
is a worldwide network that is owned, operated, and maintained by the Air Force Space
Command to support Space Operations. The Satellite Control Network provides an
earth-to-space connection to control military satellites and support launch and early orbit
operations of all major U.S. satellite launches. The Satellite Control Network supports
more than 100 communication, navigation, surveillance, and weather satellites. The
Satellite Control Network tracks satellites, receives and processes data, and sends
commands to the satellites.

The Space and Missile Systems Center, a subordinate unit of the Air Force Space
Command, awarded Honeywell Technology Solutions, Inc. (Honeywell) a
cost-plus-award-fee contract on December 21, 2001, to replace outdated communication
systems in the Satellite Control Network with improved components and antenna systems
as well as provide hardware and software repair and maintenance. The contract
performance period is 6 years plus three 3-year options, with an estimated value of
$1.22 billion.

The allegations to the Defense Hotline stated that:

       •    The program is in jeopardy and will cost the taxpayer $1.7 billion over the
            next 15 years due to cost over runs, which have occurred and will continue to
            occur as a result of Honeywell’s intentionally underestimating costs in its
            initial cost proposal.

       •    Honeywell incorrectly stated it had an earned value management system in
            place at the time of contract award and subsequently billed the contract for
            implementing the required system certification.

       •    Honeywell inappropriately charged the contract for Six Sigma, a quality
            control program.

       •    Honeywell improperly charged the contract for the purchase of new
            computers.
       •   The Air Force increased program costs and decreased contract administration
           efficiency by splitting the program into development and sustainment
           elements.

Results. We substantiated that the modernization program for the Air Force satellite
tracking station was experiencing cost over runs. We identified cost over runs estimated
at $59.8 million through FY 2009 and schedule delays of 24 months on the Satellite
Control Network contract. The Air Force should conduct a program review to determine
the effect of the cost over runs on program cost, schedule and performance and whether
the program goals will be accomplished in a cost-effective manner. (See finding A for
information on the detailed recommendations.)

We substantiated that Honeywell stated it had an earned value management system in
place at time of contract award when it did not, and we also determined that the Air Force
erroneously reimbursed Honeywell for costs for building the earned value management
system. The Air Force Space and Missile Systems Center should use appropriate
remedies provided by the Federal Acquisition Regulation to correct the misstatement
made by Honeywell and obtain equitable reimbursement for the overpayment of Earned
Value Management System costs. These remedies should include obtaining the services
of the Defense Contract Audit Agency to audit the costs associated with building the
earned value management system and to obtain reimbursement for the unallowable costs.
Also, the next award fee determination for this contract should reflect Honeywell’s
inability to meet contract requirements for having a compliant earned value management
system. Further, the Air Force Space and Missile Systems Center should initiate
appropriate civil or criminal proceedings, or both, against Honeywell for violating false
claim and false statement statutes. (See finding B for information on the detailed
recommendations.)

We did not substantiate allegations that the contract over runs resulted from Honeywell’s
intentionally underestimating costs in its proposal or that the contract would cost
$1.7 billion over 15 years. Additionally, we did not substantiate allegations pertaining to
a Six Sigma quality control program, computer procurements, or splitting the program
office. (See Appendix B for detailed information on the allegations.)

Management Comments and Audit Response. The Deputy for Military Space, Office
of the Under Secretary of the Air Force and the Commander, Air Force Space and Missile
Systems Center concurred with the findings and recommendations stating that the Under
Secretary of the Air Force reviews the Satellite Control Network program monthly. Also,
the Commander, Air Force Space and Missile Systems Center stated that the Program
Executive Officer took immediate action after the full extent of the satellite tracking
station modernization project’s cost growth became apparent. In addition, the
Commander, Air Force Space and Missile Systems Center stated that the Air Force had
taken action to reflect Honeywell’s inability to meet contract requirements for having a
compliant earned value management system during the first and second award fee
assessments, and its inability to provide a compliant system will continue to be an
identified focus item.

Management comments met the intent of the recommendations. However, we request the
Commander, Air Force Space and Missile Systems Center provide additional comments
that identify completion dates for planned actions. See the Finding section of the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.


                                             ii
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objectives                                                             1

Findings
     A. Cost and Schedule for the Satellite Control Network Contract    2
     B. Earned Value Management System                                  5

Appendixes
     A. Scope and Methodology                                           9
         Prior Coverage                                                 9
     B. Summary of Allegations and Audit Results                       10
     C. Report Distribution                                            12


Management Comments
     Department of the Air Force                                       13
     Air Force Space and Missile Systems Center                        14
Background
           We performed this audit in response to allegations submitted to the Defense
           Hotline concerning questionable contracting practices during the award and
           administration of the Satellite Control Network (SCN) contract. The complaint
           contained five allegations. See the Findings section of the report and Appendix B
           for a more complete summary of the allegations, audit results, and
           recommendations.

           The Satellite Control Network. The SCN is a worldwide network owned,
           operated, and maintained by the Air Force Space Command. The mission of the
           network is to provide an earth-to-space connection to control military satellites
           and support launch and early orbit operations for all major U.S. launches. The
           SCN consists of control centers, remote tracking stations, and communications
           links that provide telemetry and tracking to DoD, allied, and civilian systems.
           The SCN supports more than 100 surveillance, communications, navigation, and
           weather satellites. Customers include, but are not limited to, the Air Force Space
           Command, other DoD programs, international programs, and other Government
           programs.

           The Satellite Control Network Contract. The Air Force Space and Missile
           Systems Center (SMC), a subordinate unit of the Air Force Space Command,
           awarded a cost-plus-award-fee-contract1 to Honeywell Technology Solutions, Inc.,
           (Honeywell) on December 21, 2001, to provide sustainment and development to
           the SCN. The sustainment portion of the SCN contract requires Honeywell to
           provide hardware and software repair and maintenance. The development portion
           of the SCN contract requires Honeywell to develop remote tracking station block
           change (tracking station modernization) that will replace outdated satellite
           tracking stations with improved electronic components and antenna systems. The
           contract performance period is 6 years plus three 3-year options for a potential
           contract length of 15 years. The estimated value of the contract, if all options are
           exercised, is $1.22 billion.


Objectives
           The overall audit objective was to determine whether allegations concerning
           questionable contracting practices during the award and administration of the
           SCN contract had merit. See Appendix A for a discussion of the audit scope and
           methodology and prior audit coverage related to the audit objective.




1
    The cost-plus-award-fee contract is an arrangement where costs are reimbursed in accordance with
    regulatory cost principles and contract terms. The contract provides for a base fee and for an additional
    fee amount that may be awarded, in whole or in part, on the basis of periodic evaluations of ongoing
    contractor performance.



                                                        1
             A. Cost and Schedule for the Satellite
                Control Network Contract
             The modernization program for the Air Force satellite tracking station
             incurred substantial cost over runs of $26.3 million (34 percent), will
             potentially incur additional cost over runs of $33.5 million, and delayed
             the completion of the scheduled modernization by 2 years. These
             conditions occurred because of unplanned indirect costs and also because
             the Space and Missile Systems Center awarded a contract for modernizing
             the satellite tracking stations before identifying technical omissions in the
             contractor’s proposal. As a result, the Air Force will continue to maintain
             an outdated, 50 year-old technology as well as expend monies for
             modernization while it renegotiates the contract.

Allegation
     The allegation stated that the SCN program is in jeopardy and will cost the
     taxpayer $1.7 billion over the next 15 years because of cost over runs. Allegedly,
     the cost over runs resulted from Honeywell’s intentionally underestimating costs
     in its cost proposal. Additionally, the allegation stated that the Defense Contract
     Audit Agency (DCAA) identified an actual $4 million cost over run in FY 2002
     and a projected $7 million cost over run for FY 2003.


Contract Over Runs
     We substantiated the allegation that the SCN contract for modernizing its satellite
     tracking stations is at risk because of cost over runs, including cost over runs
     identified by DCAA for FYs 2002 and 2003. However, we did not substantiate
     that the total program costs will increase by almost $500 million, from
     $1.22 billion to $1.7 billion. Also, we did not substantiate that Honeywell
     intentionally underestimated costs in its cost proposal.

     Unplanned Indirect Costs. DCAA conducted a partial review of Honeywell’s
     allocable costs and identified an actual over run of $4 million for FY 2002 and a
     projected cost over run of $7 million for FY 2003. The cost over runs occurred
     because of unplanned indirect costs, including the lease of a new office building
     and increased administrative staffing. Those cost over runs pertained to both the
     sustainment and the development tasks of the contract.

     Tracking Station Modernization Costs. In addition to the cost over runs
     identified by DCAA, SMC officials stated that the tracking station modernization
     portion of the SCN contract has the potential to over run contract cost estimates
     by approximately $59.8 million ($26.3 million for FYs 2002 and 2003 and an
     additional $33.5 million through FY 2009).

     Technical Omissions and Underestimated Costs. After awarding the SCN
     contract, SMC program officials identified specific areas in Honeywell’s plan for


                                           2
    the satellite tracking station modernization that were not considered technically
    sufficient. According to SMC officials, the technical changes included preparing
    detailed technical manuals, conducting antenna bore-sight tests, and stress testing
    the concrete antenna site pad. SMC changes to the plan led to increased work
    effort by Honeywell. Other portions of cost over runs resulted from the unplanned
    indirect costs that were reported by DCAA. We did not substantiate the allegation
    that Honeywell intentionally underestimated costs in its cost proposal.

    Schedule Delays. SMC issued two stop work orders on the contract and deferred
    other work to make additional funds available to improve performance on
    troubled tasks. The stop work orders provided an additional $6.6 million to
    complete those tasks. However, the deferred work added delays to the contract,
    which SMC officials estimate is 2 years behind schedule.

    Controlling Contract Costs. The SMC program officials became aware of the
    tracking station modernization cost over runs shortly after contract award and
    responded with increased contractor oversight and detailed briefings to the
    Program Executive Office on a quarterly basis. Additionally, SMC and
    Honeywell officials planned to renegotiate the statement of work and
    implementation plan for development and sustainment efforts by the end of
    September 2003. Subsequently, SMC officials revised the target for renegotiating
    the statement of work and implementation plan to January 2004 and April 2004,
    respectively. As a result of the renegotiation, SMC officials expect the revised
    baseline to provide accurate details that will enable them to more closely monitor
    the contract performance and control further cost growth. Because of the potential
    for additional over runs occurring on the contract, we believe that the Under
    Secretary of the Air Force should conduct a program review to determine the
    effect of cost over runs on the program cost, schedule and performance and
    whether the program goals will be accomplished in an effective and efficient
    manner.

    Total Contract Cost. The SMC awarded the SCN contract to Honeywell in
    December 2001 with a negotiated potential cost of $1.22 billion. We found no
    basis for the $1.7 billion mentioned in the allegation. Current over run data
    available supported a contract increase of approximately $60 million, not
    $500 million.

Recommendation and Management Comments
    A. We recommend that the Under Secretary of the Air Force review the
    satellite tracking station modernization program to determine the effect of
    cost over runs on the program cost, schedule and performance and whether
    the program goals will be accomplished in an effective and efficient manner.

    Management Comments. The Deputy for Military Space, Office of the Under
    Secretary of the Air Force and the Commander, Air Force Space and Missile
    Systems Center concurred and stated that the Under Secretary of the Air Force
    reviews the program monthly. The Under Secretary also stated that the Program
    Executive Officer took action during the spring of 2003 to initiate project reviews
    with Honeywell, after the full extent of the satellite tracking station modernization


                                          3
project’s cost growth became apparent. The Under Secretary also stated that the
project was restructured during the summer of 2003 and is currently being
implemented. The program restructure will be addressed in the FY 2006 budget
deliberations. In addition, Honeywell and the Program Executive Officer continue
to hold a quarterly forum examining cost, schedule, and performance aspects of
the project.




                                   4
             B. Earned Value Management System
             Honeywell did not satisfy the Satellite Control Network contractual
             requirement to provide a DoD-compliant Earned Value Management
             System (EVMS) and improperly obtained reimbursement for correcting
             the system deficiencies. This condition occurred because Honeywell
             stated in its contract proposal that it had EVMS capabilities when it did
             not, and the Air Force did not conduct an evaluation of the proposed
             EVMS before contract award. Without the required EVMS, the Air Force
             and the contract administrator did not have the information needed to
             effectively monitor Honeywell’s technical, cost, and schedule performance
             on the satellite modernization contract, and Honeywell may be in violation
             of the false statement and false claim statutes of the United States Code.


Allegation
     The allegation stated that Honeywell claimed it had an EVMS in place at the time
     of contract award and incorrectly billed the Air Force $300,000 to construct an
     EVMS.


Earned Value Management System
     We substantiated the allegation that Honeywell, in its proposal for the SCN
     contract, stated that it had an established EVMS that would be used during
     contract performance and that the EVMS complied with DoD
     Instruction 5000.2-R, when it did not. Further, we substantiated that Honeywell
     charged for the development of the required EVMS. Those costs were improper.
     Other costs for EVMS certification were allowable.

     EVMS Defined. The EVMS is a tool that allows both Government and
     contractor managers to oversee the technical, cost, and schedule progress on their
     contracts. An EVMS provides Government managers with data that link
     time-phased budgets to specific contract tasks, indicate work progress, and show
     cost, schedule, and technical accomplishments. An EVMS helps managers
     identify problems and take action in a timely manner to mitigate cost and
     schedule deviations.

     EVMS Requirement. SMC issued Request for Proposal F04701-00-R-0006 on
     November 3, 2000, that included Defense Federal Acquisition Regulation
     Supplement (DFARS) clause 252.234-7001, which established an EVMS
     requirement for the SCN contract.

     DFARS subpart 252.234-7001, “Earned Value Management System,” requires the
     contractor to use an EVMS that has been recognized by the administrative
     contracting officer as complying with the criteria provided in DoD



                                          5
            Instruction 5000.2-R,2 “Earned Value Management Systems Criteria Mandatory
            Procedures and Reporting.” If at the time of award the contractor’s EVMS has
            not been recognized by the administrative contracting officer as complying with
            the EVMS criteria, the contractor shall be prepared to demonstrate that the EVMS
            complies with those criteria.

            Honeywell submitted a final proposal on November 5, 2001, which stated that it
            had an adequate EVMS that would be used during contract performance and that
            complied with DoD 5000.2-R.

            Compliance with EVMS Contract Requirement. Honeywell did not have a
            compliant EVMS and used an alternative cost and scheduling system that did not
            meet the contract requirements established by DFARS 252.234-7001 to provide
            periodic cost and schedule reports required by the contract. DoD
            Instruction 5000.2-R identifies 32 criteria needed for a system to be compliant. A
            Honeywell subcontractor reviewed the Honeywell EVMS from March through
            April 2002 and determined that the EVMS did not meet any of the 32 criteria.
            Honeywell was not prepared to undergo certification review until September
            2003, 21 months after contract award. The Defense Contract Management
            Agency, which is the DoD executive agent for EVMS, conducted the certification
            review of the Honeywell EVMS in September 2003. Honeywell did not pass the
            review and is correcting its EVMS deficiencies.

            Contract Proposal Evaluation. The Earned Value Management Implementation
            Guide, dated October 3, 1997, provides general guidance for pre-contract award
            activities associated with earned value management. The Earned Value
            Management Implementation Guide states that evaluation of the proposed EVMS
            is normally undertaken as part of the proposal evaluation process. The Earned
            Value Management Implementation Guide also states that care shall be exercised
            during the entire review process to ensure that the offeror and the Government
            have the same understanding of the EVMS described in the proposal. The SMC
            source selection officials did not evaluate Honeywell’s EVMS during the proposal
            evaluation process because the officials’ satisfaction with Honeywell’s existing
            accounting and estimating systems led them to assume that the proposed EVMS
            would also be adequate.

            Reimbursement of EVMS Costs. Honeywell identified EVMS costs of
            $921,000 for FYs 2002 and 2003. According to Honeywell, $506,000 were direct
            costs charged to the SCN contract for training, integrated baseline review
            preparation, compliance review preparation, and work breakdown structure
            development. Defense Contract Management Agency officials stated that those
            were typical charges for administering an EVMS program and preparing for the
            certification required by the Government. The remaining $415,000 EVMS costs
            were indirect charges to a corporate overhead pool. These costs included
            expenses to develop training courses, train executive personnel, and efforts to
            build an adequate EVMS that complied with DoD Regulation 5000.2-R. Costs


2
    The DoD Instruction 5000.2-R was rescinded after the award of the Satellite Control Network Contract.
     However, the contract states that if compliance documents are modified or rescinded after date of contract
     award, the version listed in the contract will still be contractually binding.



                                                        6
    for constructing an adequate EVMS should not have been charged to the SCN
    contract and should be recovered from the contractor.

    SMC officials and the DCMA administrative contracting officer had ongoing
    discussions with Honeywell officials regarding its lack of a reliable EVMS. The
    administrative contracting officer sought assistance in determining the
    allowability of Honeywell billings for EVMS, but was mistakenly advised about
    the appropriateness of some costs.

    SMC should request DCAA to review all EVMS charges, direct and indirect, to
    determine which of the costs are allowable and allocable. SMC should initiate
    administrative action pursuant to the Federal Acquisition Regulation to include an
    equitable adjustment for all unallowable and unallocable charges on the
    Honeywell EVMS. Also, SMC should reflect Honeywell’s inability to provide an
    adequate EVMS in the next award fee computation.

    Compliance With United States Code. Section 1001, title 18, United States
    Code (18 U.S.C. 1001) makes it unlawful to knowingly make a false, fictitious, or
    fraudulent statement or representation on any matter within the jurisdiction of the
    executive, legislative, or judicial branch of the Government of the United States.

    31 U.S.C. 3729 provides liability for any person who knowingly presents, or
    causes to be presented, to an officer or employee of the United States Government
    or a member of the Armed Forces of the United States a false or fraudulent claim
    for payment or approval.

    Neither SMC officials nor the administrative contracting officer formally
    addressed whether or not Honeywell had made a false statement by asserting that
    it had a compliant EVMS or that Honeywell had submitted a false claim. SMC
    should use available regulatory and statutory remedies to hold Honeywell
    accountable for its false assertion of a complaint EVMS, and subsequent claims
    based on that assertion, in apparent violation of 18 U.S.C. 1001 and 31 U.S.C.
    3729.

Recommendations, Management Comments and Audit
  Response
    B. We recommend that the Commander, Air Force Space and Missile
    Systems Center:

           1. Request the Defense Contract Audit Agency to conduct an audit of
    the costs associated with Honeywell’s Earned Value Management System
    and advise the Air Force of the allowable and unallowable costs.

    Management Comments. The Commander, Air Force Space and Missile
    Systems Center concurred.

    Audit Response. Although the Air Force concurred, we request additional
    management comments on the final report that identify planned completion dates
    for Recommendation B.1.


                                         7
      2. Initiate administrative action pursuant to the Federal Acquisition
Regulation to include:

             a. Obtaining reimbursement from Honeywell for the
unallowable or unallocable costs identified by the Defense Contract Audit
Agency for the Earned Value Management System.

             b. Reflecting Honeywell’s inability to satisfy the requirement
for an Earned Value Management System in the Air Force’s next award fee
computation.

SMC Comments. The Commander, Air Force Space and Missile Systems Center
concurred with Recommendation B.2.a. The Commander stated that
Recommendation B.2.b. had been initially accomplished during the SCN
Contract’s first and second award fee period assessments and Honeywell’s
inability to provide a compliant system will continue to be an identified focus
item.

        3. Review the circumstances of Honeywell’s assertion concerning the
Earned Value Management System and initiate appropriate actions (that is,
administrative, civil, criminal) against Honeywell for apparent violation of
false claim and false statement statutes.

SMC Comments. The Commander concurred with recommendation B.3. and
stated that the review of Honeywell’s assertion concerning the EVMS would
receive immediate attention.

Audit Response. Although the Air Force concurred, we request additional
management comments to the final report that identify planned completion dates
for Recommendation B.3.




                                   8
Appendix A. Scope and Methodology
    We performed audit work to examine allegations made to the Defense Hotline
    concerning the SCN contract. We discussed the allegations with the officials at
    SMC, Defense Contract Management Agency, DCAA, and Honeywell.

    We performed this audit from June 2003 through December 2003 in accordance
    with generally accepted government auditing standards. The audit scope was
    limited to the allegations concerning questionable contracting and administration
    practices. Additionally, we did not review the technical omissions associated with
    the remote change block development effort and relied on examples provided by
    SMC officials. We also reviewed the allegations regarding the billing of Six
    Sigma, computer procurements, and cost increases due to splitting the SCN into
    two program elements. See the Findings section of the report and Appendix B for
    a more complete summary of the allegations and audit results. We did not review
    the management control program.

    We identified, analyzed, and documented applicable laws and regulations for
    Earned Value Management Systems. We reviewed the Request for Proposal for
    the Satellite Control Network Contract and the Satellite Control Network
    Contract. We examined documents dated from October 1997 through
    October 2003 related to the allegations.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Contract Management high-risk areas.

Prior Coverage
    No prior coverage has been identified for the Air Force Satellite Control Network
    Contract from the General Accounting Office, the Office of the Inspector General
    for the Department of Defense, or the Air Force Audit Agency during the last
    5 years.




                                        9
Appendix B. Summary of Allegations and Audit
            Results
   Of the five allegations concerning questionable contracting practices for the SCN
   contract, we substantiated or partially substantiated two allegations but did not
   substantiate the other three allegations.

   Allegation 1. The SCN program is in jeopardy and will cost the taxpayer
   $1.7 billion over the next 15 years due to cost over runs. The DCAA identified an
   actual $4 million cost over run in FY 2002 and a projected $7 million cost over
   run for FY 2003. This was allegedly as a result of Honeywell’s intentionally
   underestimating costs in its initial cost proposal.

   Partially Substantiated. We substantiated the allegation that the SCN contract
   for modernizing satellite tracking stations is at risk because of contract over runs,
   including cost over runs identified by DCAA for FYs 2002 and 2003. However,
   we did not substantiate that the total program costs had increased by almost
   $500 million, from $1.22 billion to $1.7 billion. Also, we did not substantiate that
   Honeywell intentionally underestimated costs in its cost proposal. In addition, we
   identified additional cost over runs for tracking station modernization estimated at
   $59.8 million through FY 2009 and schedule delays of 24 months. (See finding A
   for details on the allegations and audit results.)

   Allegation 2. Honeywell stated it had an EVMS in place at the time of contract
   award that it did not have and subsequently billed the Air Force $300,000 to
   obtain EVMS certification.

   Substantiated. We substantiated the allegation that Honeywell’s proposal for the
   SCN contract asserted that an established EVMS would be used during contract
   performance that it did not have, and that Honeywell incorrectly stated the EVMS
   complied with DoD Instruction 5000.2-R. We substantiated that Honeywell
   charged costs for the development of the EVMS. These costs were improper.
   Other costs charged for EVMS certification were allowable. (See finding B for
   details on the allegations and audit results.)

   Allegation 3. The allegation stated that the contractor has billed and plans to
   continue billing expenses related to a Six Sigma Program, which is internal to
   Honeywell and of little value to the SCN program.

   Unsubstantiated. Although Honeywell was indirectly charging the SCN contract
   for Six Sigma, we did not substantiate the allegation that Six Sigma was of little
   value to the SCN program. Six Sigma is a quality control program used to
   improve processes such as repair and production, which is being instituted
   corporatewide at Honeywell.

   DCAA officials stated that they reviewed the charges for Six Sigma and
   determined that costs were appropriately allocated to corporate indirect cost pools.
   The DCAA determined that the current disclosure statement allows Honeywell to



                                        10
charge Six Sigma costs indirectly when the process improvement will benefit the
company in its entirety.

Allegation 4. The allegation stated that Honeywell improperly charged the
Government for the purchase of new computers on the SCN contract.

Unsubstantiated. We did not substantiate the allegation that Honeywell’s plan
for purchasing new computer equipment was an unallowable expense. Honeywell
corporate policy was to update its computers when needed. The DCAA reviewed
the corporate plans for acquiring new computers. The DCAA reviewed the lease
versus purchase agreement but did not question the need for updating computers.

Allegation 5. The allegation stated that the Air Force increased program costs
and decreased efficiency by splitting the SCN program into two elements,
development and sustainment.

Unsubstantiated. Before the current contract with Honeywell, the Air Force had
five separate contracts with three different contractors to complete development
and sustainment tasks for the SCN. The development projects under the previous
contracts did not include the tracking station modernization. The sustainment
tasks included hardware and software maintenance and depot level repairs.
However, SMC officials stated that there were always separate development and
sustainment program offices for the SCN program. We could not substantiate that
there was an increase in costs or a decrease in efficiency because of the
dissimilarity in the scope of work in the current and prior contracts.




                                   11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Air Force
Under Secretary of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Space and Missile Systems Center
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          12
Department of the Air Force Comments




                     13
Air Force Space and Missile Systems Center
Comments




                      14
15
16
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Bruce A. Burton
Roger H. Florence
David H. Griffin
Patrice A. Cousins
Amber M. Lyons
Jacqueline N. Pugh
